U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

October 13, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: United States v. Briggs, No. 19-108, and United States v. Collins, No. 19-184
Dear Mr. Harris:
At oral argument in these cases earlier today, Justice Sotomayor asked about the significance of
“the fact that it’s been decades, decades, since the death penalty has been imposed or sought in a rape case
in the military.” Transcript 21:3-6. As part of my response, I stated that it has been decades since the
military “sought” the death penalty for premeditated murder. Id. at 21:9-12. I meant to say that it has
been decades since the military carried out the death penalty for premeditated murder. On occasion the
military has sought the death penalty for premeditated murder, including within the last decade. The
government maintains its position that the frequency with which the death penalty has been sought or
carried out in the military does not affect the constitutional analysis here.
I apologize for my misstatement, and I would appreciate if you could distribute this letter to the
Members of the Court.
Sincerely,
/s/ Jeffrey B. Wall
Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

19-0108
USA
MICHAEL J.D. BRIGGS

PETER COOTE
PENNONI
1900 MARKET STREET
SUITE 300
PHILADELPHIA, PA 19103
215-222-3000
PCOOTE@PENNONI.COM
ZACHARY A. GRAY
DEPARTMET OF THE ARMY
9275 GUNSTON ROAD
FORT BELVOIR, VA 22060-5546
703-806-0676
ZACHARY.A.GRAY8.MIL@MAIL.MIL
JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, DC 20005
202-736-8291
JGREEN@SIDLEY.COM
ALLYSON N. HO
GIBSON, DUNN & CRUTCHER LLP
2001 ROSS AVENUE
DALLAS, TX 75201-2911
214-698-3233
AHO@GIBSONDUNN.COM

MAJ. JOHNATHAN LEGG
FAIRCHILD HALL
ROOM 6H-194
US AIR FORCE ACADEMY, CO 80840
JOHNATHAN.LEGG@USAFA.EDU
JEREMY B. LOWREY
ATTORNEY AT LAW
PO BOX 153
SHERIDAN, AR 72150
870-328-4957
JLOWREY@CENTERLANE.ORG
ELIZAB ETH G. MAROTTA
DEFENSE APPELLATE DIVISION
9275 GUNSTON ROAD
FORT BELVOIR, VA 22060-5546
703-693-0647
ELIZABETH.G.MAROTTA.MIL@MAIL.MIL
DAVID P. SHELDON
LAW OFFICES OF DAVID P. SHELDON, PLLC
100 M STREET, SE
SUITE 600
WASHINGTON, DC 20003
202-546-9575
DAVIDSHELDON@MILITARYDEFENSE.COM
STEVEN I. VLADECK
727 EAST DEAN KEETON STREET
AUSTIN , TX 78705
SVLADECK@LAW.UTEXAS.EDU
TERRI ZIMMERMAN
770 S. POST OAK LANE
SUITE 620
HOUSTON , TX 77056
TERRI.ZIMMERMAN@ZLZSLAW.COM

19-0184
USA
RICHARD D. COLLINS AND HUMPHREY DANIELS,
III

WILLIAM E. CASSARA
P.O. BOX 2688
EVANS, GA 30809
706-860-5769
BILL@WILLIAMCASSARA.COM
PETER COOTE
PENNONI
1900 MARKET STREET
SUITE 300
PHILADELPHIA, PA 19103
215-222-3000
PCOOTE@PENNONI.COM
ZACHARY A. GRAY
DEPARTMET OF THE ARMY
9275 GUNSTON ROAD
FORT BELVOIR, VA 22060-5546
703-806-0676
ZACHARY.A.GRAY8.MIL@MAIL.MIL
JEFFREY T. GREEN
SIDLEY AUSTIN LLP
1501 K STREET, N.W.
WASHINGTON, DC 20005
202-736-8291
JGREEN@SIDLEY.COM

TAMI L. MITCHELL
CIVILIAN APPELLATE DEFENSE COUNSEL
LAW OFFICE OF DAVID P. SHELDON, PLLC
5390 GOODWIEW DRIVE
COLORADO SPRINGS, CA 80911
719-426-8967
TAMIMITCHELL@MILITARYDEFENSE.COM
MARK J. SCHWARTZ
MAJOR, USAF
APPELLATE DEFENSE COUNSEL
AIRFORCE APPELLATE DEFENSIVE DIVISION
1500 W. PERIMETER ROAD, SUITE 1100
JOINT BASE ANDREWS, MD 20762
240-612-4470
MARK.J.SCHWARTZ7.MIL@MAIL.MIL
DAVID P. SHELDON
LAW OFFICES OF DAVID P. SHELDON, PLLC
100 M STREET, SE
SUITE 600
WASHINGTON, DC 20003
202-546-9575
DAVIDSHELDON@MILITARYDEFENSE.COM
STEPHEN I. VLADECK
727 EAST DEAN KEETON ST.
AUSTIN, TX 78705
512-475-9198
SVLADECK@LAW.UTEXAS.EDU

